August 31, 2010

FRANK NERI
MANAGER, PROCESSING OPERATIONS

SUBJECT: Audit Report – Internal Controls over Powered Industrial Vehicles at Sites
        Without the Powered Industrial Vehicle Management System
        (Report Number NO-AR-10-009)

This report presents the results of our audit focusing on powered industrial vehicles
(PIV) at two sites without the Powered Industrial Vehicle Management System (PIVMS)
(Project Number 10XG039NO000). The objective of this self-initiated audit was to
determine whether internal controls over PIVs were in place at the Tulsa, OK and
Portland, OR Processing and Distribution Centers (P&DCs). See Appendix A for
additional information about this audit.

As of October 2009, the Postal Service had installed PIVMS in 66 P&DCs. The PIVMS
consists of intelligent wireless devices installed on PIV and client-server software for
access control, utilization analysis, real-time location tracking, and many other
functions. The Postal Service intended the PIVMS to provide automated measurement,
control, and compliance reporting of PIV operations within a plant, resulting in optimal
PIV safety conditions, operations, supervision, and associated savings. The Postal
Service funded over $35 million for PIVMS. Over 160 P&DCs did not have this system,
and managed PIV operations through other means.1

Conclusion

We found Tulsa and Portland P&DCs ensured internal controls over workhours, safety,
and security, and maintenance were in place. Specifically, the Tulsa and Portland
P&DCs:

          Properly managed equipment operator overtime and workhours by using a
           smaller percentage of workhours than national averages.

          Ensured that internal controls over safety and security were in place.

          Used the internal electronic Maintenance Activity Reporting and Scheduling
           System (eMARS) to schedule maintenance and ensure its completion.


1
    We will further address this issue in our capping report.
Internal Controls over Powered Industrial Vehicles at                      NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


      Adequately controlled battery use.

We are not making any recommendations in this report. See Appendix B for our detailed
analysis of this topic. The Postal Service reviewed a draft of this report and had no
comments or concerns.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    Steven J. Forte
    David E. Williams
    Corporate Audit and Response Management




                                                   2
                                        Restricted Information
Internal Controls over Powered Industrial Vehicles at                          NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


                        APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

The U.S. Postal Service justified the purchase of the PIVMS at certain facilities, stating
it would:

      Eliminate unauthorized use of PIVs.

      Reduce injuries resulting from unsafe operation of PIVs.

      Reduce damage to mail and equipment resulting from unsafe operation of PIVs.

      Reduce the number of workhours used to transport mail and equipment
       throughout the plant.

      Reduce the number of pieces of equipment needed to perform this work.

      Reduce the number of workhours needed to maintain the fleet of PIVs.

This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc., of Hackensack, NJ, in January 2005 to produce and deploy the PIVMS.
The Postal Service started the program essentially as a pilot when it signed a $3.6
million contract with I.D. Systems to implement a wireless asset management system at
10 bulk mailing and distribution facilities across the country. As of October 2009, the
Postal Service placed orders for PIVMS deployment at 114 facilities. The total amount
funded for the PIVMS as of October 2009 was over $35 million.

We reviewed internal controls over PIV at two sites without the PIVMS: the Tulsa P&DC
and the Portland P&DC. These two sites are not scheduled to implement the PIVMS.

The Tulsa P&DC is located in the Southwest Area, Oklahoma District. The map below
shows the Southwest Area Districts.




                                                   3
                                        Restricted Information
Internal Controls over Powered Industrial Vehicles at                                                                               NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System



                                                                                                             Southwest Area
                                                                                                                   FY 2010
                                                                  Oklahoma
                        Albuquerque                                                              Arkansas


                                               Fort Worth



                                                                              Dallas



                                                                                                 Louisiana


                                                       Rio Grande             Houston




The Tulsa P&DC processed 808,254,396 first handling pieces (FHP) and used 780,582
Function 12 workhours in fiscal year (FY) 2009. The Postal Service owns the facility.

The Portland P&DC is located in the Western Area, Portland District. The map below
shows the Western Area Districts.

              Western Area                              Seattle
                   FY 2010
                                                                                       Big Sky


                                                  Portland                                                     Dakotas
                                                                                                                                Northland




                                                                                                                                  Hawkeye
                                                                     Salt Lake City
                                                    Nevada-Sierra                       Colorado/Wyoming
                                                                                                               Central Plains




                                      Alaska                                                                                       Mid-America



                                                                    Arizona




2
    The Postal Service records mail processing hours in a category referred to as Function 1.




                                                             4
                                                  Restricted Information
Internal Controls over Powered Industrial Vehicles at                                            NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


The Portland P&DC processed 1,044,610,590 FHP and used 1,252,820 Function 1
workhours in FY 2009. The Postal Service owns the facility.

In their July 31, 2003 report the President’s Commission on the U.S. Postal Service,
recommends that the Postal Service’s mission be “. . . to provide high-quality, essential
postal services to all persons and communities by the most cost-effective and efficient
means possible at affordable and, where appropriate, uniform rates.” Title 39 U.S.C.
Part 1, Chapter 4, § 403, states, “The Postal Service shall plan, develop, promote, and
provide adequate and efficient postal services at fair and reasonable rates and fees.”

The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether internal controls over PIV were in place at two
sites without PIVMS. We judgmentally selected and visited two non-PIVMS P&DCs
(Tulsa and Portland) to determine how they manage internal controls (such as OSHA
checklists) and how they control workhours and vehicles.3

To accomplish this objective, we analyzed volume and workhour trends for two sites
from FY 2007 through June 2010. To conduct this audit, we relied on computer-
processed data maintained by Postal Service Operational Systems, which included the
Web-Based Complement Information System, the Enterprise Data Warehouse system,
and the eMARS. We did not test the validity of controls over these systems. However,
we checked the accuracy of the data by confirming our analysis and results with Postal
Service managers and found that the data was sufficiently reliable.

We conducted this performance audit from May through August 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on July 29, 2010, and included their
comments where appropriate.




3
  The report makes conclusions regarding two non-PIVMS sites, which may not be representative of all non-PIVMS
sites.



                                                       5
                                            Restricted Information
Internal Controls over Powered Industrial Vehicles at                              NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


PRIOR AUDIT COVERAGE

We conducted seven prior reviews at sites with the PIVMS. The sites we reviewed did
not always use the PIVMS as intended and consequently did not fully realize efficiency
improvements. Management agreed with our recommendations in these prior reports.

                                                      Report         Final      Monetary
                    Report Title                      Number      Report Date    Impact
    Powered Industrial Vehicle Management
    System at the Raleigh Processing and          NO-AR-08-007     9/15/2008     $3,345,456
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Providence Processing and       NO-AR-08-010     9/23/2008     $1,576,086
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Louisville Processing and       NO-AR-09-001     12/3/2008     $1,981,643
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Oakland Processing and          NO-AR-09-007     7/23/2009    $14,598,866
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Washington Network and          NO-AR-09-010     9/22/2009            $0
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Tampa Processing and            NO-AR-10-001    12/14/2009            $0
    Distribution Center
    Powered Industrial Vehicle Management
    System at the Indianapolis Processing and     NO-AR-10-004     3/29/2010     $7,913,246
    Distribution Center




                                                   6
                                        Restricted Information
Internal Controls over Powered Industrial Vehicles at                                              NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


                                APPENDIX B: DETAILED ANALYSIS

Tow and Forklift Workhour Trends

The Tulsa and Portland P&DCs were able to effectively manage workhours in tow and
forklift operations without the PIVMS. We analyzed FHP productivity, overtime trends in
mail processing operations (Function 1) and in tow and forklift operations, and the
percentage of Function 1 workhours used in tow and forklift operations for FY 2007
through June 2010. We found that the Tulsa and Portland P&DCs properly managed
tow and fork workhours including overtime. For example, in FY 2009, Tulsa and
Portland P&DCs used 6.11 percent and 5.44 percent, respectively, as a percent of
Function 1 workhours in tow and forklift operations compared to the national average of
6.86 percent. Similarly, the Tulsa and Portland P&DCs used 2.07 percent and 3.79
percent, respectively, in tow and forklift overtime compared to the national average of
6.74 percent.

Management at the Tulsa and Portland P&DCs controlled workhours used in tow and
forklift operations by evaluating equipment operator staffing levels and productivity.

      Tulsa P&DC management gave consideration to mail flows when they developed
       the floor layout of the Tulsa P&DC with the intent to minimize transporting
       distance and deadheading within the plant. Tulsa P&DC management also used
       a low-cost tray sorter (LCTS)4 and the tray management system (TMS)5 which
       reduced the number of PIVs needed for operations. See Illustration 1.




                     Illustration 1: TMS tray Induction unit on the South Dock,
                     Tulsa P&DC, June 3, 2010.

4
  A LCTS has also helped to reduce the tow and forklift workhours.
5
  The Tulsa P&DC has a TMS, which has also helped to reduce tow and forklift workhours as incoming mail trays are
inducted directly from the docks to the TMS.



                                                        7
                                             Restricted Information
Internal Controls over Powered Industrial Vehicles at                                                NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System



            Management at the Portland P&DC used a Six Sigma “Close the Gap
             Initiative”6 and closely reviewed workhour reports to reduce tow and forklift
             workhours. Management did not automatically backfill for absent drivers and
             as powered equipment operator jobs become vacant, management reviewed
             PIV routes before reposting positions. Portland management stated that
             observing employees on the job was the primary method used to evaluate
             equipment operator staffing levels and productivity.

Internal Controls Over PIVs at the Tulsa and Portland P&DCs

We reviewed controls over security, safety, and vehicle maintenance at the Tulsa and
Portland P&DCs and found that these controls were functioning as intended.

Security

Based on our review of training records, both the Tulsa and Portland P&DCs ensured
that only certified drivers operated PIVs. Management at the Tulsa P&DC ensured their
PIV drivers completed classroom training and on the job training with a certified
operator. Management at the Portland P&DC required drivers to complete a PIV
refresher-training course every 3 years. Management at both sites had PIV drivers carry
locally created proof of certification when operating vehicles.

The Strategic Transformation Plan 2006 to 2010 states, “Perhaps the greatest
investment the Postal Service can make for employees is maintaining a safe work
environment — making sure they return home to their families each day the same way
they came in to work.” In addition, the plan says, “The Postal Service is subject to the
reporting requirements of the Occupational Safety and Health Administration and
follows the required criteria and reporting methodology. Providing a safe workplace is a
demonstration of the commitment the Postal Service has to its employees.”

Safety

Management at both sites ensured that OSHA checklists were completed. During our
one-week site visits, we observed the PIV drivers at the Tulsa and Portland P&DCs on
each tour physically examine the PIV at the beginning of their tour and then complete a
manual checklist. We also randomly tested the files for the past year and found that the
manager of Distribution Operations at each site maintained copies of the completed
checklists.

Management at the Portland and Tulsa P&DCs also investigated accidents by talking to
the employees involved and had standard procedures in place to revoke the PIV


6
 The "close the gap" initiative used in Portland is part of the Six Sigma performance improvement process that helps
management compare actual performance to potential performance.



                                                         8
                                              Restricted Information
Internal Controls over Powered Industrial Vehicles at                                            NO-AR-10-009
 Sites Without the Powered Industrial Vehicle Management System


operator license when an accident occurred. During our review at the Tulsa and
Portland P&DCs, we did not observe unsafe driving practices or accidents.

Maintenance

Management at the two sites used eMARS to schedule preventive maintenance and
ensure maintenance was completed.7 For example, when there were vehicle problems
noted on the daily OSHA checklists at the Portland P&DC, a work order was prepared
and the problem resolved. Both sites controlled battery use. See Illustration 2 to see the
locked battery room at the Portland P&DC.




        Illustration 2: Locked battery room door at the Portland P&DC, June 16,
        2010.




7
 We found that at the PIVMS sites we visited, eMARS was also used to schedule preventive maintenance and
ensure that it was completed. We plan to address the use of eMARs instead of PIVMS in our capping report.



                                                       9
                                            Restricted Information
